76a
2.0 Forwarding
2.1 Change-of-Address Order
2.1.1 Normal Time Limit
Records of permanent change-of-address
orders are kept by city delivery Post Offices for
18 months, for forwarding and for address
correction purposes, from the end of the
month when the change takes effect. A record
of change-of-address orders from general
delivery to a permanent local address without
time limit is kept 6 months. A record of
change-of-address orders to other than a
permanent local address is kept 30 days.
2.1.2 Time Limit Extension
When a customer notifies the Post Office of a
permanent change in mailing address or
USPS changes a customer’s mailing address,
the postmaster may extend the forwarding
period for 1 additional year if mail is regularly
received addressed to the old address. To
qualify for this extension, the customer must
show that a financial hardship will ensue if
extended forwarding is not granted. The
customer must also show that reasonable
effort is being made to notify correspondents
of the new address.
Mailing Standards of the United States Postal Service,
§§2.1.1-2.1.2.

